Audit Report

Illinois Firearm Reduction Program Administered by the 
Office of the Attorney General, State of Illinois

Report No. GR-50-05-002


November 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Illinois Firearm Reduction Program grant awarded by the U.S. Department of Justice, Office of Justice Programs, to the Office of the Attorney General, State of Illinois (Office).  The established mission of the Illinois Firearm Reduction Program is to increase public confidence in the ability of law enforcement to investigate and prosecute violations of the firearms statutes that occur at gun shows, in retail outlets, and via the internet; to increase public awareness of the firearms statutes and penalties for violation of those statutes; and to increase the awareness of gun show operators and retail establishments as to the penalties for violation of firearms statutes. 

On September 26, 2001, the Office was awarded a total of $798,240 to fund the program.  We tested the Office's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the award.  Of the $719,064 expended as of January 31, 2004, we tested transactions totaling $161,315 and found that the grantee was generally in compliance with the grant conditions tested.  However, we found that the Office:

did not promptly expend drawdowns; in one instance, the grantee held funds for over 2 months prior to disbursement; and

	did not file two of six semiannual progress reports in a timely manner.  These reports on grant activity were filed 8 and 71 days late.  

Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.